CERTIFICATE OF WORD COUNT
NO. 19-970
Retail Ready Career Center, Inc.,
Petitioner(s),
v.
United States,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the VETERANS OF THE ARMED
FORCES OF THE UNITED STATES OF AMERICA AMICUS AT PETITION STAGE IN SUPPORT OF NEITHER
PARTY contains 1351 words, including the parts of the brief that are required or exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 4, 2020

SCP Tracking: Davis-901 Main Street, Suite 5200-Cover Cream

